  ~ SEIlVICES.




('g
',.:::~
                                           DEPARTMENT OF HEALTH AND HUMAN SERVICES
                                                              OFFICE OF AUDIT SERVICES
                                                             233 NORTH MICHIGAN AVENUE
                                                               CHICAGO, ILLINOIS 60601
                                                                                                                              REGIONV
                                                                                                                                   OF
                                                                                                                              OFFICE
                                                                                                                        INSPECTOR GENERAL


                                                                    February 6, 2009
           Report Number: A-05-08-00052

          Alan D. Biggerstaff
          Deputy Director
          Ilinois Department of Public Health
           525 West Jefferson Street, 2nd Floor
           Springfield, Ilinois 62761-0001

           Dear Mr. Biggerstaff:

           Enclosed is the U.S. Deparment of                  Health and Human Services (HHS), Offce of            Inspector
           General (OIG), final report entitled "Review of                      the Ilinois Department of   Public Health's
           Compliance with the Ryan White CARE Act Payer-of-Last-Resort Requirement." We wil
           forward a copy of this report to the HHS action official noted on the following page for review
           and any action deemed necessary.

           The HHS action official will make final determination as to actions taken on all matters reported.
           We request that you respond to this offcial within 30 days from the date ofthis letter. Your
           response should present any comments or additional information that you believe may have a
           bearing on the final determination.

           Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, OIG reports generally are made
           available to the public to the extent that information in the report is not subject to exemptions in
           the Act. Accordingly, this report wil be posted on the Internet at http://oig.hhs.gov.

           If you have any questions or comments about this report, please do not hesitate to call me,
           or contact Mike Barton, Audit Manager, at (614) 469-2543 or through e-mail at
           Mike.Barton(aoig.hhs.gov. Please refer to report number A-05-08-00052 in all correspondence.

                                                                            Sincerely,



                                                                         ~K Regional Inspector General
                                                                             for Audit Services

           Enclosure
Page 2 - Mr. Alan D. Biggerstaff



Direct Reply to HHS Action Official:

Ms. Rebecca Spitzgo
Associate Administrator
Office of Federal Assistance Management
Health Resources and Services Administration
5600 Fishers Lane
Parklawn Building, Room 13-103
Rockvile, Maryland 20857-0001
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





   REVIEW OF THE ILLINOIS 

   DEPARTMENT OF PUBLIC 

 HEALTH’S COMPLIANCE WITH 

 THE RYAN WHITE CARE ACT 

   PAYER-OF-LAST-RESORT 

       REQUIREMENT





                    Daniel R. Levinson

                     Inspector General 


                      February 2009

                      A-05-08-00052

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices 


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
' 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY 


BACKGROUND

The Ryan White Comprehensive AIDS Resources Emergency (CARE) Act of 1990, Public
Law 101-381, funds health care and support services for people who have HIV/AIDS and who
have no health insurance or are underinsured. As the Federal Government’s largest source of
funding specifically for people with HIV/AIDS, the CARE Act assists more than 500,000
individuals each year. Within the U.S. Department of Health and Human Services, the Health
Resources and Services Administration administers the CARE Act.

Title II of the CARE Act, sections 2611-2631 of the Public Health Service Act, provides grants
to States and territories to fund the purchase of medications through AIDS Drug Assistance
Programs (ADAP) and other health care and support services. Pursuant to 42 U.S.C. § 300ff-
27(b)(6)(F), these grant funds may not be used to pay for items or services that are eligible for
coverage by other Federal, State, or private health insurance. This provision is commonly
referred to as the “payer of last resort” requirement.

During our audit period (grant years 2003–2005), the Illinois Department of Public Health (the
Department) claimed Title II drug expenditures totaling $81,915,290.

OBJECTIVE

Our objective was to determine, for grant years 2003-2005, whether the Department complied
with the Title II payer-of-last-resort requirement that funds not be used to pay for drugs that are
eligible for coverage by other Federal, State, or private health insurance.

SUMMARY OF FINDINGS

The Department did not fully comply with the Title II payer-of-last-resort requirement that funds
not be used to pay for drugs that are eligible for coverage by other Federal, State, or private
health insurance. Of the 100 prescriptions that we sampled, 97 were correctly claimed to the
Title II program for patients without other health care coverage for HIV/AIDS drugs. However,
the remaining three prescriptions were incorrectly claimed to the Title II program for patients
who had other health insurance that would have covered the drugs. As a result, the Department
claimed $808 in unallowable Federal funding for grant years 2003–2005.

The overpayments occurred because the Department’s procedures did not identify beneficiaries
who received similar services paid for by Medicaid and did not identify beneficiaries who
became Medicaid-eligible retroactive to the time that the prescriptions were filled.
Consequently, the beneficiaries were eligible for drug coverage under the Illinois Medicaid
program and therefore, the Department’s Title II program should not have paid for the
prescriptions.




                                              i
RECOMMENDATIONS

We recommend that the Department:

       •	 refund $808 to the Federal Government and

       •	 consider implementing additional procedures to prevent beneficiaries from filling
          prescriptions within the Medicaid program and the ADAP and to identify
          beneficiaries who become retroactively eligible for the Medicaid program to ensure
          the ADAP program only pays for drug costs associated with patients that are not
          eligible for HIV/AIDS drug coverage by other Federal, State, or private health
          insurance plans.

DEPARTMENT COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments to our draft report, the Department did not specifically address our first
recommendation, but indicated that it will work with the Illinois Medicaid Agency to implement
procedures to identify retroactive eligibility claims and return credit for any claims identified as
payable by Medicaid. The Department’s comments are included in their entirety as
Appendix C.

We continue to recommend that the Department refund $808 to the Federal government.




                                             ii
                                                  TABLE OF CONTENTS


                                                                                                                             Page


INTRODUCTION..............................................................................................................1 


          BACKGROUND .....................................................................................................1 

              Title II Grant Funds .....................................................................................1 

              Payer-of-Last-Resort Requirement ..............................................................1 


          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2 

               Objective ......................................................................................................2      

               Scope............................................................................................................2 

               Methodology ................................................................................................2 


FINDINGS AND RECOMMENDATIONS ....................................................................3 


          IMPROPER TITLE II CLAIMS FOR PRESCRIPTION DRUGS .........................4 


          RECOMMENDATIONS.........................................................................................4 


          DEPARTMENT COMMENTS AND 

          OFFICE OF INSPECTOR GENERAL RESPONSE ..............................................4 


APPENDIXES

          A – SAMPLE DESIGN AND METHODOLOGY 


          B – SAMPLE RESULTS 


          C – DEPARTMENT COMMENTS 





                                                              iii
                                              INTRODUCTION 


BACKGROUND 


The Ryan White Comprehensive AIDS Resources Emergency (CARE) Act of 1990, Public Law
101-381, funds health care and support services for people who have HIV/AIDS and who have
no health insurance or are underinsured. As the Federal Government’s largest source of funding
specifically for people with HIV/AIDS, the CARE Act assists more than 500,000 individuals
each year. Within the U.S. Department of Health and Human Services, the Health Resources
and Services Administration (HRSA) administers the CARE Act.

Title II Grant Funds

Title II of the CARE Act, sections 2611-2631 of the Public Health Service Act, provides grants
to States and territories to fund the purchase of medications through AIDS Drug Assistance
Programs (ADAP) and other HIV/AIDS health and support services, such as outpatient care,
home and hospice care, and case management.

In Illinois, the Department of Public Health (the Department) administers the Title II program.
The majority of Illinois’ Title II program funds are designated for drugs to treat HIV/AIDS
through the ADAP. For example, ADAP expenditures for the grant year ended March 31, 2005,
accounted for about 77 percent of Title II expenditures.

Payer-of-Last-Resort Requirement

Title II of the CARE Act stipulates that grant funds not be used to pay for items or services that are
eligible for coverage by other Federal, State, or private health insurance. This provision is
commonly referred to as the “payer of last resort” requirement. Specifically, section 2617(b)(6)(F)
of the Public Health Service Act (42 U.S.C. § 300ff-27(b)(6)(F)) states:

           [T]he State will ensure that grant funds are not utilized to make payments for any
           item or service to the extent that payment has been made, or can reasonably be
           expected to be made, with respect to that item or service –
                   (i) under any State compensation program, under an insurance policy, or
                        under any Federal or State health benefits program; or
                   (ii) by an entity that provides health services on a prepaid basis.1

In addition, HRSA Program Policy No. 97-02, issued February 1, 1997, and reissued as DSS2
Program Policy Guidance No. 2 on June 1, 2000, reiterates the statutory requirement that “funds
received . . . will not be utilized to make payments for any item or service to the extent that
payment has been made, or can reasonably be expected to be made . . .” by sources other than

1
 Subsequent to the audit period in question, The Ryan White HIV/AIDS Treatment Modernization Act of 2006,
§§ 204(c)(1)(A) and (c)(3), Pub. Law No. 109-415 (December 19, 2006), redesignated this provision as section
2617(b)(7)(F) (42 U.S.C. § 300ff-27(b)(7)(F)) and amended subparagraph (ii) to prohibit the State from using these
grant funds for any item or service that should be paid for “by an entity that provides health services on a prepaid
basis (except for a program administered by or providing the services of the Indian Health Service).”
2
    DSS is the Division of Service Systems, a component of HRSA’s HIV/AIDS Bureau.
                                                     1

Title II funds. The guidance then provides: “At the individual client level, this means that
grantees and/or their subcontractors are expected to make reasonable efforts to secure other
funding instead of CARE Act funds whenever possible.”

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine, for grant years 2003–2005, whether the Department complied
with the Title II payer-of-last-resort requirement that funds not be used to pay for drugs that are
eligible for coverage by other Federal, State, or private health insurance.

Scope

Our review covered the period April 1, 2003, through March 31, 2006 (grant years 2003–2005).
On its financial status reports for that period, the Department claimed ADAP expenditures
totaling $81,915,290 for HIV/AIDS drugs dispensed by mail order through the contracted
pharmacy.

We did not assess the Department’s overall internal controls for administering Title II funds.
Rather, we limited our review to gaining an understanding of those significant controls related to
the claiming of HIV/AIDS drug costs. Due to concerns regarding the protection of program
participant’s personally identifiable identification, we did not contact private health insurance
companies to confirm health insurance coverage. We conducted our fieldwork at the
Department’s offices in Springfield, Illinois.

Methodology

To accomplish our objective, we:

        •	 reviewed applicable Federal laws, regulations, and guidance;

        •	 reviewed documentation provided by the Department for grant years 2003–2005,
           including notice of grant awards, financial status reports and supporting accounting
           records, and the ADAP drug formulary (a list of drugs authorized for purchase by the
           program);

        •	 held discussions with Department officials to identify policies, procedures, and
           guidance used to identify other insurance coverage and for billing HIV/AIDS drugs to
           other Federal or State programs and private insurance plans;

        •	 analyzed the Department’s procedures for accounting for and dispensing drugs to
           Title II patients;

        •	 identified a population of 351,343 HIV/AIDS prescriptions for which claims totaled
           $100,742,778 (which includes both Federal and State funded ADAP drugs);


                                             2

       •	 selected a simple random sample of 100 prescriptions from the population of 351,343
          prescriptions and, for the sampled prescriptions:

               o	 identified patients enrolled in the Illinois Medicaid plan by using the State’s
                  Medicaid-eligibility database,

               o	 identified patients enrolled in private health insurance plans by using the
                  Department’s files,

               o	 confirmed other insurance drug coverage and the amount of that coverage
                  with officials of the Department’s contracted pharmacy, and

               o	 identified the cost of dispensed drugs by using the Department’s payment
                  invoices, and

       •	 reviewed the contracted pharmacy’s documentation of the inventory tracking process,
          dispensing procedures, accounting for adjustments, and verified information on a
          limited number of sampled prescriptions.

Appendix A contains details on our sample design and methodology, and Appendix B contains
our sample results.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Department did not fully comply with the Title II payer-of-last-resort requirement that funds
not be used to pay for drugs that are eligible for coverage by other Federal, State, or private
health insurance. Of the 100 prescriptions that we sampled, 97 were correctly claimed to the
Title II program for patients without other health care coverage for HIV/AIDS drugs. However,
the remaining three prescriptions were incorrectly claimed to the Title II program for patients
who had other health insurance that would have covered the drugs. As a result, the Department
of Public Health claimed $808 in unallowable Federal funding for grant years 2003–2005.

The overpayments occurred because the Department’s procedures did not identify beneficiaries
who received similar services paid for by Medicaid and did not identify beneficiaries who
became Medicaid-eligible retroactive to the time that the prescriptions were filled.
Consequently, the beneficiaries were eligible for drug coverage under the Medicaid program and
therefore, the Department’s Title II program should not have paid for the prescriptions.




                                             3

IMPROPER TITLE II CLAIMS FOR PRESCRIPTION DRUGS

The payer-of-last-resort requirement set forth in 42 U.S.C. § 300ff-27(b)(6)(F) provides that
Title II funds may not be used to pay for items or services that are eligible for coverage under
other Federal, State, or private health insurance.

Contrary to the payer-of-last-resort requirement, the Department claimed Title II funding for
three sampled prescriptions dispensed to individuals who had other health insurance that would
have covered the drugs. Specifically, the Illinois Medicaid program had primary payment
responsibility for the three prescriptions. The Federal share of the amount claimed for the three
prescriptions totaled $808. Details regarding the three prescriptions follow:

       •	 For one prescription, the beneficiary obtained the prescribed drugs from a retail
          pharmacy, which received reimbursement from the Illinois Medicaid program.
          During this same service period, the beneficiary received the prescribed drugs from
          the ADAP-contracted pharmacy, which submitted a claim to the Illinois Medicaid
          program for reimbursement. The claim was denied because the Medicaid program
          had already paid for the prescription.

       •	 For two prescriptions, two beneficiaries were not Medicaid-eligible at the time they
          obtained the prescribed drugs from the ADAP-contracted pharmacy. However, the
          beneficiaries applied for Medicaid eligibility in the first or second month after
          obtaining the drugs and became retroactively eligible for drug coverage under the
          Illinois Medicaid program.

The overpayments occurred because the Department’s procedures did not identify beneficiaries
who received similar services paid for by Medicaid and did not identify beneficiaries who
became Medicaid-eligible retroactive to the time that the prescription was filled. Consequently,
the beneficiaries were eligible for drug coverage under the Medicaid program and therefore, the
Department’s Title II program should not have paid for the prescriptions.

RECOMMENDATIONS

We recommend that the Department:

       •	 refund $808 to the Federal Government and

       •	 consider additional procedures to prevent beneficiaries from filling prescriptions
          within the Medicaid program and the ADAP and to identify beneficiaries who
          become retroactively eligible for the Medicaid program to ensure the ADAP program
          only pays for drug costs associated with patients that are not eligible for HIV/AIDS
          drug coverage by other Federal, State, or private health insurance plans.

DEPARTMENT COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments to our draft report, the Department did not specifically address our first
recommendation, but indicated that it will work with the Illinois Medicaid Agency to implement
                                             4

procedures to identify retroactive eligibility claims and return credit for any claims identified as
payable by Medicaid. The Department’s comments are included in their entirety as
Appendix C.

We continue to recommend that the Department refund $808 to the Federal government.




                                              5

APPENDIXES 

                                                                                  APPENDIX A


                        SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of all Federal and State funded prescriptions for AIDS Drug Assistance
Program (ADAP) drugs dispensed to HIV/AIDS patients and claimed from April 1, 2003,
through March 31, 2006.

SAMPLING FRAME

The sampling frame consisted of 351,343 prescriptions for Federal and State funded ADAP
drugs with claimed expenditures totaling $100,742,778 for the period April 1, 2003, through
March 31, 2006.

SAMPLE UNIT

The sample unit was a prescription for ADAP drugs dispensed to an HIV/AIDS patient.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 prescriptions.

SOURCE OF THE RANDOM NUMBERS

The source of the random numbers was the Office of Inspector General, Office of Audit Services
statistical software. We used the random number generator for our simple random sample.

METHOD FOR SELECTING SAMPLE ITEMS

We sequentially numbered the prescriptions in our sampling frame, including prescriptions for
drugs listed in both the ADAP-funded and the State-funded formularies (mixed prescriptions).
After generating 100 random numbers, we selected the corresponding frame items and created a
list of sample items.

CHARACTERISTICS TO BE MEASURED

We considered a sample item improper if the patient had other Federal, State, or private health
insurance that covered the dispensed drugs. The amount of the improper payment was the
amount that the other health plan would have paid.

Drugs purchased with State-only funds that appeared on a prescription were not counted as
errors.
                                                                       APPENDIX B


                               SAMPLE RESULTS


                                                                        Value of
 Number of                                Value of      Number of      Improper
Prescriptions     Value of     Sample     Sampled       Improper       Payments
  in Frame         Frame        Size    Prescriptions   Payments    (Federal Share)
   351,343      $100,742,778     100      $27,206          3             $808
APPENDIX C 

